      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




January 29, 2010

TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Missouri’s Claims Associated With the Increased Federal Medical
               Assistance Percentage Under the American Recovery and Reinvestment Act
               of 2009 (A-07-09-02762)


Attached is an advance copy of our final report on the review of Missouri’s claims associated
with the increased Federal medical assistance percentage (FMAP) under the American Recovery
and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act). We will issue this report to the
Missouri Department of Social Services (State agency) within 5 business days.

The Recovery Act, enacted February 17, 2009, provides, among other initiatives, fiscal relief to
States to protect and maintain State Medicaid programs in a period of economic downturn. For
the recession adjustment period (October 1, 2008, through December 31, 2010), the Recovery
Act provides an estimated $87 billion in additional Medicaid funding based on temporary
increases in States’ FMAP.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Social Security Act, and some Temporary Assistance to Needy
Families expenditures; expenditures for individuals made eligible through income eligibility
expansions after July 1, 2008; and expenditures not based on the FMAP. Furthermore,
section 5001(f)(5) of the Recovery Act states that no increase in a State’s FMAP may result in an
FMAP that exceeds 100 percent. For the first and second quarters of fiscal year 2009, the State
agency’s regular FMAP rate was 63.19 percent, and the temporarily increased FMAP rate was
71.24 percent.

The State agency claimed medical assistance payments of approximately $2.6 billion for Federal
reimbursement on its standard Forms CMS-64, “Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program” (CMS-64) for the period of October 1, 2008, through
Page 2 – Charlene Frizzera


March 31, 2009. Recovery Act funds of approximately $273 million were included in this
reimbursement.

Our objectives were to determine whether the State agency’s $273 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

The State agency’s $273 million in claims associated with the temporarily increased FMAP was
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records. In addition, the State
agency had policies and procedures in place to segregate Medicaid expenditures that qualified
for the temporarily increased FMAP and to ensure that those Medicaid expenditures that did not
qualify were not being claimed for reimbursement at the temporarily increased FMAP.

However, the State agency had not documented those policies and procedures intended to ensure
that its claims were computed on Medicaid expenditures that qualified for the temporarily
increased FMAP under the provisions of the Recovery Act. Documenting policies and
procedures would increase the likelihood that future claims for Recovery Act funds would
qualify and be supported by accounting records.

State agency officials stated that the policies and procedures had not been documented because
the Recovery Act is so new and because they were waiting on additional guidance from the
Centers for Medicare & Medicaid Services.

We recommend that the State agency document its policies and procedures for claiming the
temporary increase in FMAP.

In written comments on our draft report, the State agency concurred with our recommendation
and stated that it would update its written procedures by December 31, 2009.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-09-02762.


Attachment
 DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Office of Inspector General

                                                                         Office of Audit Services, Region VII
                                                                         601 East 12th Street, Room 0429
                                                                         Kansas City, MO 64106



February 4, 2010

Report Number: A-07-09-02762

Mr. Ronald J. Levy
Director
Missouri Department of Social Services
P.O. Box 1527
Jefferson City, Missouri 65102-1527

Dear Mr. Levy:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Missouri’s Claims Associated With the Increased
Federal Medical Assistance Percentage Under the American Recovery and Reinvestment Act of
2009.” We will forward a copy of this report to the HHS action official noted on the following
page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, the final report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02762 in all correspondence.

                                                    Sincerely,



                                                    /Patrick J. Cogley/
                                                    Regional Inspector General
                                                      for Audit Services


Enclosure
Page 2 – Mr. Ronald J. Levy

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL


   REVIEW OF MISSOURI’S CLAIMS
  ASSOCIATED WITH THE INCREASED
   FEDERAL MEDICAL ASSISTANCE
      PERCENTAGE UNDER THE
     AMERICAN RECOVERY AND
   REINVESTMENT ACT OF 2009




                         Daniel R. Levinson
                          Inspector General

                           February 2010
                           A-07-09-02762
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Missouri, the Department of Social Services
(State agency) administers the Medicaid program, which includes developing and maintaining
internal controls.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provides an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
Federal medical assistance percentage (FMAP). The Federal Government pays its share of a
State’s medical assistance expenditures under Medicaid based on the FMAP, which varies
depending on that State’s relative per capita income.

The Department of Health and Human Services, Office of Assistant Secretary for Planning and
Evaluation (ASPE), calculates the increased FMAP on a quarterly basis for the 50 States and the
District of Columbia. ASPE provides these increased FMAPs to CMS, which uses them to
determine the amount of Federal funds to award to the States through its Medicaid grant
process. In a previous audit, we reviewed the ASPE FMAP calculations (“Review of the
Calculations of Temporary Increases in Federal Medical Assistance Percentages Under the
American Recovery and Reinvestment Act,” A-09-09-00075) and determined that ASPE
calculated the increased FMAPs for the first and second quarters of Federal fiscal year
(FY) 2009 for all 50 States and the District of Columbia in accordance with applicable
provisions of the Recovery Act. In another audit, we reviewed CMS’s calculation for the
additional FMAP Medicaid funding (“Review of the Calculation of Additional Medicaid
Funding Awarded Under the American Recovery and Reinvestment Act,” A-09-09-00080) and
determined that, for the first two quarters of FY 2009, CMS had calculated the additional
Medicaid funding awarded under the Recovery Act in accordance with Federal law.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Act, and some Temporary Assistance to Needy Families
expenditures; expenditures for individuals made eligible through income eligibility expansions
after July 1, 2008; and expenditures not based on the FMAP. Furthermore, section 5001(f)(5) of
the Recovery Act states that no increase in a State’s FMAP may result in an FMAP that exceeds



                                               i
100 percent. For the first and second quarters of FY 2009, the State agency’s regular FMAP rate
was 63.19 percent, and the temporarily increased FMAP rate was 71.24 percent.

The State agency claimed medical assistance payments of approximately $2.6 billion for Federal
reimbursement on its standard Forms CMS-64, “Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program,” for the period of October 1, 2008, through March 31,
2009. Recovery Act funds of approximately $273 million were included in this reimbursement.

OBJECTIVES

Our objectives were to determine whether the State agency’s $273 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

SUMMARY OF FINDING

The State agency’s $273 million in claims associated with the temporarily increased FMAP was
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records. In addition, the State
agency had policies and procedures in place to segregate Medicaid expenditures that qualified
for the temporarily increased FMAP and to ensure that those Medicaid expenditures that did not
qualify were not being claimed for reimbursement at the temporarily increased FMAP.

However, the State agency had not documented those policies and procedures intended to ensure
that its claims were computed on Medicaid expenditures that qualified for the temporarily
increased FMAP under the provisions of the Recovery Act. Documenting policies and
procedures would increase the likelihood that future claims for Recovery Act funds would
qualify and be supported by accounting records.

State agency officials stated that the policies and procedures had not been documented because
the Recovery Act is so new and because they were waiting on additional guidance from CMS.

RECOMMENDATION

We recommend that the State agency document its policies and procedures for claiming the
temporary increase in FMAP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendation
and stated that it would update its written procedures by December 31, 2009. The State agency’s
comments are included in their entirety as the Appendix.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION..............................................................................................................1

      BACKGROUND ..........................................................................................................1
        Medicaid Program....................................................................................................1
        American Recovery and Reinvestment Act of 2009................................................1

      OBJECTIVES, SCOPE, AND METHODOLOGY......................................................2
        Objectives ................................................................................................................2
        Scope........................................................................................................................2
        Methodology ............................................................................................................3

FINDING AND RECOMMENDATION.........................................................................4

      FEDERAL GUIDANCE ..............................................................................................4

      POLICIES AND PROCEDURES ...............................................................................4

      RECOMMENDATION................................................................................................5

      STATE AGENCY COMMENTS.................................................................................5

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

States report Medicaid expenditures to CMS on the Form CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program” (CMS-64).

In Missouri, the Department of Social Services (State agency) administers the Medicaid
program, which includes developing and maintaining internal controls.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provides an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs. Section 5000 of the Recovery Act provides these increases to help avert cuts in health
care provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. For the first
two quarters of Federal fiscal year (FY) 2009, CMS made available to States, beginning
February 25, 2009, approximately $16 billion in additional Medicaid funding based on the
increased FMAP for each State. Since then, CMS has provided guidance to State Medicaid
agencies (in the form of letters to State Medicaid directors) regarding implementation of the
provisions of the Recovery Act, including provisions for the temporarily increased FMAP.

The Department of Health and Human Services, Office of Assistant Secretary for Planning and
Evaluation (ASPE), calculates the increased FMAP on a quarterly basis for the 50 States and the
District of Columbia. ASPE provides these increased FMAPs to CMS, which uses them to
determine the amount of Federal funds to award to the States through its Medicaid grant



                                               1
process. In a previous audit, we reviewed the ASPE FMAP calculations (“Review of the
Calculations of Temporary Increases in Federal Medical Assistance Percentages Under the
American Recovery and Reinvestment Act,” A-09-09-00075) and determined that ASPE
calculated the increased FMAPs for the first and second quarters of FY 2009 for all 50 States and
the District of Columbia in accordance with applicable provisions of the Recovery Act. In
another audit, we reviewed CMS’s calculation for the additional FMAP Medicaid funding
(“Review of the Calculation of Additional Medicaid Funding Awarded Under the American
Recovery and Reinvestment Act,” A-09-09-00080) and determined that, for the first two quarters
of FY 2009, CMS had calculated the additional Medicaid funding awarded under the Recovery
Act in accordance with Federal law.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Act, and some Temporary Assistance to Needy Families
expenditures; expenditures for individuals made eligible through income eligibility expansions
after July 1, 2008; and expenditures not based on the FMAP.

Pursuant to section 5001(f)(5) of the Recovery Act, no increase in a State’s FMAP may result in
an FMAP that exceeds 100 percent. For the first and second quarters of FY 2009, the State
agency’s regular FMAP rate was 63.19 percent, and the temporarily increased FMAP rate was
71.24 percent.

The State agency claimed medical assistance payments of approximately $2.6 billion for Federal
reimbursement on its CMS-64s for the period of October 1, 2008, through March 31, 2009.
Recovery Act funds of approximately $273 million were included in this reimbursement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency’s $273 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

Scope

We reviewed the amount claimed on the CMS-64s for the first two quarters of FY 2009
(October 1, 2008, through March 31, 2009). We reviewed the State agency’s internal controls to
the extent necessary to accomplish our objective.

We did not audit expenditures made by the State agency during this period to assure that they
qualified for Federal Medicaid reimbursement.




                                               2
We performed fieldwork at the State agency’s offices in Jefferson City, Missouri, from May to
June 2009.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws and regulations and CMS guidance;

       reviewed the State agency’s policies and procedures for segregating the Medicaid
        expenditures that qualified for the temporarily increased FMAP from those that did not;

       reviewed the State agency’s State Medicaid plan;

       reviewed Missouri’s FY 2008 A-133 audit 1 and interviewed personnel in the Missouri
        State Auditor’s Office for insight on possible internal control weaknesses found during
        that office’s review of the State agency;

       interviewed State agency personnel in charge of compiling the CMS-64s to understand
        the procedures used to calculate the reported Medicaid expenditures;

       identified the Medicaid expenditures that qualified for the temporarily increased FMAP,
        as well as those that did not qualify for the temporarily increased FMAP, as reported on
        the CMS-64s for the first two quarters of FY 2009;

       traced selected Medicaid expenditure line item amounts (both those that qualified for the
        temporarily increased FMAP and those that did not qualify) as reported on the CMS-64s
        to the high-level accounting records and supporting documentation; and

       discussed our finding with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




1
 The Office of Management and Budget (OMB) issued Circular A-133, “Audits of States, Local Governments, and
Non-Profit Organizations,” pursuant to the Single Audit Act of 1984, P.L. 98-502, and the Single Audit Act
Amendments of 1996, P.L. 104-156, to set forth standards for obtaining consistency and uniformity among Federal
agencies for the audit of States, local governments, and nonprofit organizations expending Federal awards. A single
audit requires an audit of the State’s financial statements and expenditures of Federal awards.



                                                         3
                           FINDING AND RECOMMENDATION

The State agency’s $273 million in claims associated with the temporarily increased FMAP was
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records. In addition, the State
agency had policies and procedures in place to segregate Medicaid expenditures that qualified
for the temporarily increased FMAP and to ensure that those Medicaid expenditures that did not
qualify were not being claimed for reimbursement at the temporarily increased FMAP.

However, the State agency had not documented those policies and procedures intended to ensure
that its claims were computed on Medicaid expenditures that qualified for the temporarily
increased FMAP under the provisions of the Recovery Act. Documenting policies and
procedures would increase the likelihood that future claims for Recovery Act funds would
qualify and be supported by accounting records.

State agency officials stated that the policies and procedures had not been documented because
the Recovery Act is so new and because they were waiting on additional guidance from CMS.

FEDERAL GUIDANCE

OMB Circular A-87, Attachment A, § A.2.a.(1) states: “Governmental units are responsible for
the efficient and effective administration of Federal awards through the application of sound
management practices.”

The General Accounting Office’s “Standards for Internal Control in the Federal Government”
identifies sound management practices that can be applied by non-Federal entities. It states (in
the Control Activities section, page 11): “Internal control activities help ensure that
management’s directives are carried out” and (in the Examples of Control Activities section,
page 15): “Internal control . . . and other significant events need to be clearly documented, and
the documentation should be readily available for examination. The documentation should
appear in management directives, administrative policies, or operating manuals . . . .”

POLICIES AND PROCEDURES

For the first two quarters of FY 2009, the State agency computed its Medicaid claims of
$273 million associated with temporarily increased FMAP using the Medicaid base specified in
the Recovery Act and had records to support its claims. The State agency did so by segregating
the Medicaid expenditures that qualified for the temporarily increased FMAP and by ensuring
that those Medicaid expenditures that did not qualify were not being claimed for reimbursement
at the temporarily increased FMAP.

Although the State agency had developed and implemented policies and procedures as part of its
internal controls to ensure that it claimed only Medicaid expenditures that qualified for the
temporarily increased FMAP under the provisions of the Recovery Act, these policies and
procedures had not been documented.




                                                 4
Documenting policies and procedures would increase the likelihood that future claims for
Recovery Act funds would qualify and be supported by accounting records. Documenting
operational policies and procedures helps ensure that operations are performed effectively and
efficiently by eliminating oversights, giving new personnel sufficiently detailed instructions,
assuring continuity, and specifying quality assurance functions.

State agency officials stated that the policies and procedures had not been documented because
the Recovery Act is so new and because they were waiting on additional guidance from CMS.

RECOMMENDATION

We recommend that the State agency document its policies and procedures for claiming the
temporary increase in FMAP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendation
and stated that it would update its written procedures by December 31, 2009. The State agency’s
comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                 APPENDIX: STATE AGENCY COMMENTS 





                   )Ollr Poteminl.    Ollr Support.
                                                          JER ~MlAH W. (MY) NIXOI<.OOVt:RNOR • RON ~W J. L£VY. OIRECTOR


                                             P.O.OOX IS27 '    aa OAuw~V   STAnorrCf: BUILDING' )UURSON ClTv. MO 6S I01·,,17
                                                                               www.DSS.MO.GOv .sn·7SI.>I811 • ,1)·751·J203 fA X




                                             December 16, 2009


Patrick J. Cogley
Regionallnspeclor General for Audit Services
Department of Health and Human Services
Office of Inspec lor General, Offices of Audit Services, Region VII
60 I East 12th Street, Room 249
Kansas City, MO 64106

       Re: 	   Review oj/he 'dissouri's Claims Associaled With Ihe Increased Federal Medicaid
               Arsislance Percentage Under Ihe American Recovery ami Reinvestment Act, Reporl
               No. A-07·09·02762

  Dear Mr. Cogley:

  The Missouri Department of Social Services hereby responds to the dra ft report oflhe above·
  referenced audit dated November 19, 2009. The draft repon asked that we present any comments
  and include a statement of concurrence or non-concurrence with the recommendation.

 The audit found that although the State agency had policies and procedures in place to correctly
 claim Medicaid expenditures that qualified for the tcmporary increased FMAP they had not fully
 documented them because additional guidance was forthcoming from eMS.

  We concu r with the recommendation that the State agency document its policies and procedUres
  for claiming the temJXlrary increase in FMAP and will have our written procedures urxiated by
  DC1:ember 31, 2009.

   Please do not hesitate to coniact Jennifer R. Tidball at (573)751-7533 if you have any questions
  about the foregoing response.

  Sincerely,


 ~~
  Ronald J. Levy
  Director

  RJL:RB:bsb


                                                      R ELIIY MISSOU~I 


                                             I'OR 'IEAA<I'G A~O SPf.E.C1I1.. PA'UO 

                                     1·100-135·2466   VOlC~'   1·800-735-196/i TtX'f   '_E 

